RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-639
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, in his official capacity as
Governor of Nevada, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Gordon D. Todd, certify that
the Brief of Religious Organizations as Amici Curiae in Support of Petitioner in the
foregoing case contains 5,998 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 10, 2020.
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

